<html>
<title> - OVERSIGHT HEARING ON THE LIBRARY OF CONGRESS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
              OVERSIGHT HEARING ON THE LIBRARY OF CONGRESS

=======================================================================




                                HEARING

                               before the

                              COMMITTEE ON
                          HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JULY 27, 2006
                               __________

                       Printed for the use of the





                      U.S. GOVERNMENT PRINTING OFFICE
32-720 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 





                   COMMITTEE ON HOUSE ADMINISTRATION

                  VERNON J. EHLERS, Michigan, Chairman
BOB NEY, Ohio                        JUANITA MILLENDER-McDONALD, 
JOHN L. MICA, Florida                    California
JOHN T. DOOLITTLE, California          Ranking Minority Member
THOMAS M. REYNOLDS, New York         ROBERT A. BRADY, Pennsylvania
CANDICE S. MILLER, Michigan          ZOE LOFGREN, California

                           Professional Staff

                      Will Plaster, Staff Director
               George F. Shevlin, Minority Staff Director





              OVERSIGHT HEARING ON THE LIBRARY OF CONGRESS

                              ----------                              


                        THURSDAY, JULY 27, 2006

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:15 a.m., in room 
1310, Rayburn House Office Building, Hon. Vernon J. Ehlers 
(chairman of the committee) presiding.
    Present: Representatives Ehlers, Ney, Doolittle, Millender-
McDonald, and Lofgren.
    Staff Present: Fred Hay, General Counsel; Bryan T. Dorsey, 
Professional Staff Member; Peter Sloan, Clerk; Craley Funfgeld, 
Staff Assistant; George F. Shevlin, Minority Staff Director; 
Michael Harrison, Minority Professional Staff Member; Matt 
Pinkus, Minority Professional Staff Member; and Kristin 
McCowan, Minority Staff Assistant.
    The Chairman. The purpose of today's oversight hearing is 
to get an update on the operations of the Library of Congress 
and the ways in which the Library is preparing for its future 
through its ongoing strategic planning, technology, design and 
preservation initiatives.
    One of the greatest challenges for America's librarians and 
archivists is responding to the changing ways in which 
information is being created, shared, stored and maintained in 
the digital age. In order for our Nation's libraries to 
maintain their relevancy to the public, they must look for 
opportunities to not only adapt to the digital revolution, but 
to embrace it. Dr. James H. Billington, the Librarian of 
Congress, and one of our witnesses today, is committed to 
leveraging the advances in technology to enhance the Library's 
operations and to meet the evolving needs of the Congress and 
the public.
    Today, he will lay out his vision for how the Library of 
Congress will continue to transform itself in order to continue 
their goal of being America's premier library into the 21st 
century.
    One of the largest and most exciting additions to the 
Library is the creation of the National Audiovisual 
Conservation Center, the NAVCC, located in Culpeper, Virginia. 
This facility, which was made possible through a partnership 
between the Library and the Packard Humanities Institute, with 
the aid of the Architect of the Capitol, will eventually house 
the entirety of the Library's audiovisual collection and will 
feature specialized preservation laboratories used to minimize 
the degradation of these items over time.
    I look forward to receiving an update from our witnesses on 
the construction of the NAVCC facilities so that we may better 
understand how the opening of this facility next year will 
impact current library operations.
    An exciting initiative that embraces emerging technologies 
is the National Digital Information Infrastructure and 
Preservation Program, or NDIIPP. I think you need better 
acronyms; this has all kinds of connotations. Its goal is to 
develop ways to preserve information through the use of 
technology.
    Now halfway through its congressional authorization, NDIIPP 
is committed to increasing access to a rich body of digital 
content through the establishment of a national network of 
committed partners who have a common goal of preserving our 
digital heritage.
    The network now has over 67 partners and plans to expand 
the program to assist state governments. NDIIPP is focused on 
the retention of digital media which is so often lost due to 
its evolving and dynamic nature, and I can vouch from 
experience, having dealt with this at the state level with 
county and city clerks who wanted to preserve all the records 
digitally, and few of them understood the complications of 
maintenance. And I was fortunate to be in a position there to 
write the legislation to help guide them in that, but they will 
certainly need your guidance.
    To help guide the NDIIPP, a National Digital Strategy 
Advisory Board has been created. It is comprised of Federal 
agencies such as the National Archives and Records 
Administration, NARA; the Government Printing Office, GPO; and 
the National Science Foundation, NSF; in addition to business 
leaders and technical experts.
    We would like to learn from our witnesses today what 
progress has been made since the establishment of the program, 
which upcoming projects are included in the program and the 
overall strategic direction. I believe that the work of this 
program will be instrumental in the establishment of 
government-wide standards for the preservation, authentication 
and access to digital information. I encourage the Library to 
assist GPO and NARA as they work on standards that not only 
will digitize Federal Government information but will also 
preserve it and make it available to the public.
    Another technology initiative that is of interest to the 
committee is the World Digital Library, which will create a 
repository of rare and historic materials for public use. This 
program is being supported through both private and public 
funding. Recently, Google Incorporated expressed their support 
for the project through a $3 million donation.
    While I am pleased with the progress that has been made in 
preserving our history through the use of technology, there are 
many questions raised by the formation of the World Digital 
Library. With the explosive growth of the Internet and the 
never-ending amount of material available that could 
potentially be archived, the Library must ensure that the 
proper controls are in place so that the proper information is 
being stored with the appropriate operations in place to 
maintain the integrity of the collection.
    I look forward to hearing from our witnesses today 
concerning the management and governance of this important 
project.
    Another issue of importance before this committee is the 
progress being made on the Jefferson Building redesign. With 
the construction of the Capitol Visitor's Center growing closer 
to completion, there will soon be an opportunity to give 
visitors to the CVC an additional rich multimedia experience as 
they enter the Jefferson Building. I am eager to get a sense of 
our plans and schedule for the Jefferson Building space.
    Before I conclude my remarks, I should note another issue 
that has come to my attention. Over the past year, the 
committee has received several letters from Members expressing 
deep concern with CRS experts' ability to meet the standards of 
the agency's mission by providing the Congress with, quote, 
nonpartisan objective analysis and research on all legislative 
issues, end quote. When comments and criticisms are being made 
in the media, it should be the objective of CRS to always 
present to the Congress confidential analyses that fairly 
represents all sides of an issue. This committee would like CRS 
employees to keep that in mind when speaking about their work 
for the Congress outside of the office.
    Finally, all of the changes that have taken place within 
the Library over the past several years and the increasing 
focus on digital and technological enhancements to the 
Library's operations, I would like to get a sense from Dr. 
Billington as to what is being done to ensure that the 
workforce in place at the Library of Congress is equipped and 
prepared for this change. As we prepare our physical and 
technical infrastructure with the equipment required to keep up 
with the latest technology, it is equally important to ensure 
that our workforce is prepared for this transition.
    At this time, I would like to recognize Ms. Millender-
McDonald, who is not yet here, and I would like to ask if some 
other member of the minority would like--Ms. Lofgren.
    Ms. Lofgren. I will just say, I think this is an important 
hearing. The Intellectual Properties Subcommittee, on which I 
also serve, is in the middle of a markup, so I may have to 
leave before we are concluded. It is not for lack of interest 
in this subject.
    I am particularly interested in the digital efforts of the 
Library, and one of the things I hope that can be addressed in 
the testimony is the issue of accessibility of the digital 
effort. As I am sure the librarian is aware, there is an effort 
underway in the private sector now to develop open-source 
standards so that no proprietary standard would prevent access 
to the information. And I am very interested in pursuing that 
because, to the extent that this is America, really the world's 
library, the world needs to have access to it, and there 
shouldn't be any barrier that is proprietary to that goal.
    Secondarily, I am interested--I didn't see any reference to 
it in the written testimony, but I assume that it has been 
thought of--which is cyber security, which needs to be built in 
at the very beginning to the digital effort of the Library. And 
I am interested in what process we are using to make sure that 
the cyber security element has been addressed from the get-go 
on this.
    I commend--I understand that copyrights do provide some 
barriers to access, but I also know that it is possible to 
overcome those barriers with the permission of copyright 
holders. And in fact, we are well underway in adopting an 
orphan works bill that I think will assist this greatly because 
most of the protected materials are no longer being 
commercially exploited, and we are going to come up with a way 
to make sure that that material is made available to the 
culture and not simply lost because of copyright rules.
    I just think this is a very exciting project. Google is not 
actually in my congressional district; it is about 8 miles 
outside, but I certainly have many, many constituents who work 
for Google, and I am glad they have been generous in 
contributing, and I am hoping that that will be matched by 
other companies in the digital space who understand the 
implications for not only the United States but the world in 
making this information so freely available.
    So thank you, Mr. Chairman, and also to the Library for 
this important work, and I yield back.
    The Chairman. Thank you. And if you do have to leave for a 
different hearing, you will be gone for a long discussion on 
intellectual properties.
    Mr. Doolittle, do you have any----
    Mr. Doolittle. I have no comments.
    The Chairman. Without objection, any members wishing to 
submit an opening statement for the record may do so, and it 
will be entered into the record.

   STATEMENTS OF JAMES H. BILLINGTON, LIBRARIAN OF CONGRESS; 
DEANNA MARCUM, ASSOCIATE LIBRARIAN FOR LIBRARY SERVICES; LAURA 
CAMPBELL, ASSOCIATE LIBRARIAN FOR STRATEGIC INITIATIVES; AND JO 
        ANN JENKINS, CHIEF OF STAFF, LIBRARY OF CONGRESS

    The Chairman. I would like to welcome our first panel of 
the day and ask you to take your places at the table. We are 
pleased to welcome you.
    We have with us Dr. Billington, the Librarian of Congress, 
who is undoubtedly somewhat jetlagged from a recent trip to 
Russia. We also have Deanna Marcum, Associate Librarian for 
Library Services; Laura Campbell, Associate Librarian for 
Strategic Initiatives--almost sounds like a Pentagon job; and 
Jo Ann Jenkins, Chief of Staff to the Library of Congress.
    Welcome all, and please address the committee in any way 
you see fit at any time.
    I would first like to turn to Dr. Billington for his 
testimony.

                STATEMENT OF JAMES H. BILLINGTON

    Dr. Billington. Thank you, Chairman Ehlers, and members of 
the committee.
    It is a real pleasure and honor to appear before this 
committee and to thank you for the strong support and wise 
counsel that the committee has given to the Library of Congress 
over so many years.
    I appreciate the opportunity to highlight for you some of 
the developments and initiatives that are already transforming 
the Library of Congress and have already begun to shape 
Congress's Library in the 21st century, as you have already 
enumerated.
    The Congress of the United States, Mr. Chairman, has been 
the greatest single patron of a library in the history of the 
world. Building on its purchase of Thomas Jefferson's large, 
wide-ranging, almost unique personal library, the Congress has 
created and sustained what has now become the largest and most 
widely inclusive repository both of the world's knowledge in 
almost all languages and of America's creativity in almost 
every kind of format.
    The overwhelming challenge now facing the Library in its 
third century--the oldest Federal cultural institution--is how 
to sort and preserve the exploding world of digital knowledge 
and information, and then how to integrate it into the still-
expanding world of books and other traditional analog materials 
so that we can continue to provide Congress and the American 
people with the objective knowledge and the dependable 
information that is needed more than ever in this information 
age. Everything from our security to our economic 
competitiveness increasingly depends on the information and 
knowledge base of our country.
    There is no change in the Library's basic, historic mission 
of acquiring, preserving and making accessible the world's 
knowledge and the Nation's creativity. But the way in which we 
do our work is changing radically in the face of the greatest 
revolution in the generation and communication of knowledge 
since the advent of the printing press--the digital age. The 
Library began the necessary process of transformation more than 
a decade ago with our American Memory Web site, which provides 
free access on the Internet to the Library's primary documents 
of American history for use by the Nation's schools and 
everyone else in their own locality who has access to our Web 
sites. At the same time, this committee asked the Library to 
create THOMAS, giving the public a new, simple way to access 
legislative information online.
    Since then, more than a decade ago, each area of the 
Library has pushed forward with utilizing technology to 
increase both its internal efficiency and its external 
outreach.
    In my longer statement that is in the record, I touch upon 
how electronic technology is transforming the work of CRS, the 
Copyright Office, the National Library Service for the Blind 
and Physically Handicapped, the Global Legal Information 
Network and the Library's digital resources for K-through-12 
teachers and local users across the Nation.
    By now, the Library is doing far more work with far fewer 
people, 1,091 fewer FTEs than in 1992. Last year, we acquired 
more than 2 million new analog items, gave special conservation 
treatment to 1.4 million of the 132 million analog items in our 
collections, and received nearly 3.7 billion electronic 
transactions on our Web site. We expect a 21 percent increase 
this year, to nearly 4.7 billion hits.
    Without our worldwide comprehensive acquisitions policy, 
America might never have possessed the previously little known 
autobiography of Osama bin Laden or the materials needed to 
reconstruct the traditional laws of Afghanistan that were 
almost entirely destroyed by the Taliban, just to site two 
examples.
    Today, we want to report to you on the three major new 
library undertakings which you have already itemized for us, 
Mr. Chairman, and each of these was launched in response to 
congressional initiatives.
    First is the Library's emerging new Audiovisual 
Conservation Center in Culpeper, Virginia; our National Digital 
Information Infrastructure and Preservation Program, terrible 
acronym though it may be; and finally, the new enhancements we 
are adding to the Jefferson Building for the greatly increased 
number of visitors expected in 2007.
    The Culpeper facility was authorized by PL 105-44 and has 
been supported by $53 million in Federal appropriations over 
the last 4 years. We are deeply grateful to the Congress for 
this funding.
    The facility has been built and funded by the Packard 
Humanities Institute at a projected of cost of more than $150 
million, which will be the largest private gift in the history 
of the Library and one of the largest such capital gifts ever 
conveyed to the Federal Government.
    Dr. Deanna Marcum, our Associate Librarian for Library 
Services, will discuss this unprecedented project for 
preserving our massive but often deteriorating audiovisual 
heritage, which contains so much of 20th century America, its 
history and creativity.
    Dr. Marcum will be followed by Laura Campbell, our 
Associate Librarian for Strategic Initiatives, who will report 
at midpoint on the National Digital Information Infrastructure 
Preservation Program, which she has directed since its 
establishment in December of 2000 by a special Congressional 
appropriation supporting PL 106-554.
    Finally, our Chief of Staff, Jo Ann Jenkins, will describe 
the project she is directing to enhance the experience that the 
greatly increased number of visitors will have at the new 
Capitol Visitor Center and connecting passageway to the Thomas 
Jefferson Building opening next year.
    We are grateful to members of this committee for their 
longstanding support, both for restoring so magnificently the 
Jefferson Building and for now reconnecting it physically and 
intellectually with the Capitol, where the Library was 
originally housed for most of the 19th century.
    The new program in the Jefferson Building will focus on 
bringing knowledge into life for an altogether new audience of 
visitors. It will complement the exhibits in the Capitol 
Visitors Center by celebrating something that is not as well 
known as it should be, namely, the Congress's unique historic 
role in preserving the creativity of the American people within 
the legislative branch of government--largely by locating the 
Copyright Office within the Library and making it possible for 
its deposits to be systematically housed there, as well as the 
growing number of deposits from American creative figures over 
the years.
    These three outstanding leaders to my left who will now 
continue the testimony exemplify, Mr. Chairman and members of 
the committee, the quality of our remarkable and dedicated 
library staff. Like our unique collections, this staff is a 
national treasure.
    We will begin with Dr. Marcum, who will discuss our mission 
for transforming Library Sciences with examples of work already 
underway, and especially the National Audiovisual Conservation 
Center.
    [The statement of Dr. Billington follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. I was delinquent in not mentioning the 5-
minute limit, so I encourage each of you to stay under 5 
minutes.
    Dr. Marcum.

                   STATEMENT OF DEANNA MARCUM

    Dr. Marcum. Chairman Ehlers, members of the committee, good 
morning.
    Our primary challenge in these early years of the 21st 
century is to enhance and adapt digital technology, ensuring 
that the Library of Congress continues to be the world's 
leading repository of recorded knowledge in all formats.
    As you well know, the Library of Congress has amassed an 
unparalleled richness of resources in all formats that creators 
have used, with print on paper being the most commonly used 
format.
    We have in place a superb preservation program for print on 
paper and all other formats, but our immediate imperative is to 
understand the many new materials that are being created in 
digital form and find appropriate ways to add digital materials 
to our collections and to preserve them for future generations. 
Our motivation for creating a new kind of library, the 21st 
century library, is that information-seekers in Congress, as 
elsewhere, have discovered the ease and convenience of Web and 
search engines for finding information.
    Publishers have responded by making more of their recent 
products available on the Web, and so have we. We have been at 
the forefront of making information available electronically. 
But the Library has not been replaced by Google. The Library 
continues to be essential because it brings together 
information in all formats and organizes and authenticates this 
information.
    Equally important, the Library provides expert curators who 
make connections between and among information resources to 
connect people with the content in a way that is unmatched by 
any search engine. The 21st century of the Library of Congress 
will enhance, not replace, the Library by collecting the 
growing amount of information in electronic form that will 
never be in print, and the Library will continue to digitize 
parts of the print collections, as copyrights permit, to allow 
broader access to Congress, researchers, students and the 
general public.
    Incorporating digital collections into the largest most 
comprehensive print repository will require changes in 
organizational structure, processes and staff skills. Through a 
program called Knowledge Navigators, we will bring the 
expertise of our highly skilled curators to the Web, making our 
validated, authenticated resources more accessible and more 
useful than ever before.
    There is already evidence of the 21st century library 
throughout the institution. One good example of progress is the 
geographic information systems technology and our Geography and 
Map Division. Congressional needs for nuanced policy data 
overlaid on maps are already being met by the new technology. 
Since launching the Congressional Cartography Program, we have 
provided more than 230 custom maps to Members for their use in 
legislative deliberations.
    An outstanding example of the transformation that will 
occur throughout the Library of Congress is the National 
Audiovisual Conservation Center that is nearing completion in 
Culpeper, Virginia.
    The collections of our Motion Picture, Broadcasting, and 
Recorded Sound Division consist of over 1 million moving image 
collection items, nearly 3 million audio collection items, and 
over 1.7 million supporting paper documents and photographs. 
The new facility in Culpeper will bring together all of these 
collections now scattered in five storage locations, as you see 
on this map, in a facility designed for their care and 
preservation. Thanks to the support of the Congress and the 
unprecedented generosity of David Woodley Packard and the 
Packard Humanities Institute, the state-of-the-art conservation 
center will preserve our collections and provide space for 25 
years of collections growth.
    The facility and its new technology will allow us to 
preserve the Library's collections four to five times faster 
than we can today and preserve our films three times faster.
    Great care has gone into the design and construction of 
this building. The two charts you see, one an aerial 
photograph, and over here architectural renderings, show you 
the scale of the facility and illustrate the attention that has 
gone into caring for the surrounding environment. Construction 
began in August 2003. The collection storage building was 
turned over to the Architect of the Capitol in December 2005, 
and the Library began moving collections in February 2006. To 
date, we have moved 2 million items to Culpeper.
    The conservation building will be turned over to the 
Architect of the Capitol in February 2007; staff will move 
immediately thereafter.
    It is a privilege for me to work on these important 
initiatives at the Library of Congress, and I appreciate the 
opportunity to speak to you today.
    Now I turn to Laura Campbell, the Associate Librarian for 
Strategic Initiatives. Thank you.
    The Chairman. Ms. Campbell, you are recognized.

                  STATEMENT OF LAURA CAMPBELL

    Ms. Campbell. Chairman Ehlers and committee members, it is 
an honor for me to be here today.
    The transformation to a society in which near instant 
access to information is as common as electricity, water and 
highways is underway. We began our online National Digital 
Library with American Memory in 1995, now offering 10.5 million 
items online in one of the largest archives of commercial-free 
high-quality content on the Web.
    In 1999, we extended that offering to include important 
materials from seven other countries. In 2000, we realized, and 
Congress agreed, that we needed a program to preserve important 
at-risk digital content that exists in no other form, born-
digital material. The average Web site exists for only 44 days.
    Bringing the rare and unique treasures of history from the 
Library of Congress's collections to schools and the general 
public was a bold departure from our traditional audience of 
scholars. Last year, Congress authorized the Library to roll 
out a national program for teachers and students in all 50 
States, our ``Teaching with Primary Sources'' program. In 
little more than a decade, we have built a rich information 
resource for the Nation.
    Congress charged the Library, through our National Digital 
Information Infrastructure and Preservation Program, to build a 
national network of diverse partners in order to save and 
provide access to a body of high quality content in digital 
form. We have worked closely with content creators and 
distributors, research libraries, technology companies, museums 
and nine Federal agencies, including the National Archives and 
the Government Printing Office. We now have 67 partners under 
28 agreements representing private and public organizations as 
shown on this map marking existing network partners in red. 
They are collecting and preserving digital content, developing 
the technical architecture that supports that network, and 
conducting cutting-edge research into tools and technologies to 
make the job easier.
    Our next investments will double the existing network, as 
shown on the map to your left. The Digital Preservation Program 
has become a community of practitioners sharing a complex 
challenge and leveraging what any one institution could do 
alone. By the year 2010, we will produce a national collection 
of millions of digital works through partnerships with more 
than 150 organizations sharing responsibility and costs for 
what was once the responsibility of only a few large research 
libraries.
    In 2008, we will make recommendations to Congress about the 
future of the network. We will expand the network by the end of 
this year in three new ways: first, multi-state demonstration 
projects will encourage States to work cooperatively to collect 
and preserve at-risk State and local government information. We 
have proposals involving more than 30 States now.
    Second, a new Preserving Creative America initiative will 
target creative works from commercial companies, including 
movies, digital photographs and music.
    Third, we will strengthen the existing preservation network 
through shared storage, tools and services from nonprofit and 
technology companies.
    We are also teaming with the National Science Foundation's 
Cyberinfrastructure Program to make the national digital 
collection as comprehensive as possible.
    Finally, in developing the World Digital Library, we are 
building on our record of successful bilateral projects with 
partners in Russia, Brazil, France, Spain and the Netherlands 
as well as enlisting new partners in the non-Western world 
beginning with Egypt and Mali, as indicated on the world map.
    We hope to create, alongside American Memory, digital 
presentations on the memory of these Nations in a way that will 
bring people together from diverse cultures in a shared 
learning experience. We are working with UNESCO and our 
existing partners to develop the guidelines, standards and 
approaches for including countries around the world.
    Thank you for your generous support for our digital 
programs. I am happy to answer your specific questions.
    I now introduce Jo Ann Jenkins, our Chief of Staff.
    The Chairman. Ms. Jenkins, you are recognized.

                  STATEMENT OF JO ANN JENKINS

    Ms. Jenkins. Chairman Ehlers, members of the committee, you 
have heard Dr. Billington and my colleagues describe the 
challenges before us as we position the Library of Congress for 
the 21st century. The use of technology in the digital 
environment brings tremendous opportunities for the Library to 
attract audiences that we have not been able to reach before.
    With the support of the Congress, the Thomas Jefferson 
Building was reopened in 1997 after being closed for 10 years 
for renovation. Today, we receive approximately 1.4 million 
visitors a year throughout three buildings. Our expectation, 
with the Capitol Visitor Center opening, is that the number of 
visitors will greatly increase to somewhere between 3 and 4 
million visitors in a year.
    The opening of the nearly completed passageway from the 
Capitol Visitors Center to the Jefferson Building provides a 
once-in-a-lifetime opportunity to showcase Congress's library 
and to draw into the Library many potential lifelong patrons 
and learners.
    We are designing new exhibitions and experiences that will 
engage and intrigue visitors of all ages and will showcase the 
breadth and depth of the Library's collections.
    Visitors will learn from our dedicated staff who will 
acquire, organize and preserve and provide access to our vast 
materials in every language and format. We have prepared a DVD 
that describes our plans, and with the Chairman's permission, 
we would like to show just a short segment to give the 
committee an idea of our plans.
    The Chairman. You may proceed.
    [Video played.]
    The Chairman. Thank you.
    Ms. Jenkins. Mr. Chairman, our plans do not involve any 
major construction in the Jefferson Building; they are in fact 
designed to complement the Capitol Visitor Center and to 
highlight one of the least known and unique accomplishments of 
the Congress, which is the preservation of the record of 
creativity of the American people.
    As we increase access for a broader audience, our 
traditional scholars and researchers will continue to receive 
the high level of resources and research support they have 
always received. We are raising the funds from the private 
sector to bring the new visitors experience to the Library of 
Congress. On behalf of my colleagues, we appreciate the 
opportunity to speak before you today and would be happy to 
answer any questions. Thank you.
    The Chairman. Thank you all for your testimony.
    I will recognize myself for 5 minutes for various 
questions.
    The first one I have to dispose of, just because it affects 
the many libraries throughout the country who are worried about 
this, and that is, providing control--the Library's decision to 
discontinue providing controlled series access in the 
bibliographic records that library catalogers produce.
    As you know, you provide so much service to so many 
libraries, and they are so dependent on you. I just wanted to 
convey to you that some local libraries are worried about 
losing that since they regard the Library of Congress as the 
authority on cataloging information. I would appreciate if you 
would describe this function and the justification for its 
proposed elimination. And I will refer to--Dr. Marcum, is that 
your territory? I will let you answer that one.
    Dr. Marcum. Thank you. Yes, we are keenly aware of the 
concern in the broader library community about a recent policy 
decision to stop managing the series authority records in the 
catalog.
    I would like to put this issue in a larger context, if I 
may. As we move into the digital environment, we recognize that 
our biggest challenge is to connect the user with the content. 
It is not that cataloging will go away; more than ever we need 
to describe all elements of these digital files so that people 
will know what is available online. But it means, with a 
workforce in the same numbers, we have to set priorities. We 
decided that we needed to streamline our cataloging function 
following the rules that are meant for the print environment 
and focus more on the cataloging that will be necessary for all 
of these electronic materials. So we looked at the series 
authority records that are used by very, very few people. The 
series authorities let people know how a series title has 
changed over time. All of the use information we could gather 
indicated that about one-half of 1 percent of the use of online 
catalogs is for that part of the record. So we decided that we 
could stop managing that part and focus on some of these new 
digital requirements.
    In retrospect, I believe that our failure to communicate 
promptly with the library community led to this great concern 
that we were going to be phasing out some of our high quality 
cataloging; that certainly isn't the case. In response to this 
issue, I have convened an external advisory committee. I have 
invited the American Library Association to name three 
representatives, the Association of Research Libraries to name 
three representatives, special libraries and law libraries, one 
each. I have also invited the search engine companies to name a 
representative to this external advisory committee, and there 
will be a few at-large members. We expect to convene this group 
to think about all of these cataloging issues in a cluster and 
try to think about cataloging in the new digital environment 
and develop some reports that will be helpful to librarians 
everywhere. It is a slightly long answer, but I think you need 
to get the full picture. Thank you.
    The Chairman. I just want to emphasize this point on how 
dependent libraries are on you. I am sensitive to this, having 
grown up in a town with a magnificent population of 800 
people--it still has 800 people--and libraries of this sort are 
not too concerned about the digital issues; they just are 
trying to keep their heads above water. They are totally 
dependent on you. So please keep all those libraries in mind as 
we go through this process.
    I have many more questions, but I am pleased now to note 
the attendance of our ranking member just released from the 
White House. The President apparently has decided he can run 
the country without the ranking member for the rest of the day. 
So we are pleased to welcome you. My time has expired, so I am 
pleased to recognize you for any questions.
    Mrs. Miller of Michigan. Thank you very much, Mr. Chairman. 
And I thank you all so much for being here. I am sorry I was 
not here at the beginning, but nonetheless, I am interested in 
the subject area, and I thank my colleagues for pinch hitting 
for me during my absence.
    Mr. Chairman, I am just looking over these. And I suppose 
the one thing that I would like to ask in terms of the library 
management is, how many staff members will be transferred from 
Capitol Hill to the new National Audiovisual Conservation 
Center in Culpeper?
    Dr. Billington, how many staff members will be transferred?
    Dr. Billington. I can't give you the exact number, but many 
of them will be transferred, although not all, because the 
basic use of the collections for research and for the various 
purposes for which the materials being transferred--more than 5 
million--will be used on Capitol Hill, so some will remain 
here.
    These collections have been housed in three States, 
including in Dayton, Ohio at the Wright-Patterson Air Force 
base. Nitrogen-based films are pyrophoric, even explosive, so 
they could never have been stored here on Capitol Hill. Our 
facility at Wright-Patterson Air Force Base, which is being 
phased out, includes employees, who will have the option to 
retire, but most of them will be transferred to the Culpeper 
facility.
    The storage facilities, in Boyers, Pennsylvania, and in the 
warehouse just outside Washington, DC, in Landover, Maryland 
are not Library of Congress facilities. The employees at those 
facilities are not Library employees, and the ones working at 
Landover are not employees of the Motion Picture Film Broadcast 
and Recorded Sound Division, which is basically the division 
that is moving so many people to Culpeper. So I will get you 
the exact numbers for the record.
    Mrs. Miller of Michigan. I would appreciate that.
    Dr. Billington. That is the general picture.
    Ms. Millender-McDonald. I would appreciate that.
    Dr. Billington. That is the general picture.
    Dr. Marcum. I can add a little bit. There are 11 staff 
whose jobs will remain here on Capitol Hill. They will provide 
reference and technical functions in the Performing Arts 
Reading Room, which will remain open and provide services. All 
of the other functions will be transferred to Culpepper. For 
individual staff who have decided they cannot go to Culpepper, 
we are making every effort to find equivalent jobs here and we 
will try to swap jobs within the Library so those who wish to 
go to Culpepper from another part of the institution will be 
able to do so. We need all of those skills at Culpepper, but we 
realize there are some individuals who will not be able to go.
    Ms. Millender-McDonald. I appreciate your commenting on 
that because that would have been my next question: For those 
who did not wish to go to Culpepper, what would they do? So I 
am interested in that. The Chairman did speak to me on the 
floor last week to tell me that the majority of those employees 
were going to be transferred to jobs and that you did have the 
appropriate job swaps and other job transfers. And I was happy 
to hear that because we have worked very hard together to try 
to see how we could ensure that these employees did have safe 
landings. So we thank you so much.
    The last question I have is what is the Library doing that 
makes innovative use of technology in schools? I think we 
talked a little bit about that, but can you just quickly brief 
me on that?
    Dr. Billington. The entire National Digital Library, the 
American Memory material, was basically designed for K through 
12. Our creators, who have always served scholars very well, 
were asked ``Suppose your 11- or 12-year-old niece or nephew 
came in; how would you get them interested in these primary 
documents of American history? How would you explain that in 
language that would be understandable to them?'' This is being 
sustained to a large degree in our World Digital Library as we 
work in collaboration with the National Libraries of Egypt and 
Mali and France and the Netherlands, Spain and Brazil. But then 
in addition to that, we raised some private money from the 
Kellogg Foundation and from Walter Scott of Omaha, Lawrence and 
Ann Scott, who were interested in this. We have trained about 
250 crack educators, competitively chosen from all over the 
country from a wide representation, teachers and librarians in 
the educational use. So all of their practical classroom 
teaching experience in using this material is also on line.
    In addition, there has been considerable congressional 
interest. We have in seven different States programs to train 
teachers in the educational use of the Internet, and we are 
developing a template so that any State can set this up. The 
crucial element is training teachers. Very often, even 
excellent teachers are not as advanced in the use of these 
materials and technology as their students are, because young 
people are growing up with this. The whole premise of this is 
to use the interactive potential of the Internet. It is not 
like television--even good television--which is essentially 
passive. You are a spectator witnessing somebody else's train 
of thought.
    The idea is to engage them interactively--Give them primary 
documents of American history, all of its variety and richness. 
This way you get enormous diversity of material but within one 
unified American Memory Project. There are all kinds of 
interesting ways of using this that are being devised in the 
seven States whose various congressional delegations have 
collaborated to set up programs that we help work with them on, 
and to which some funds are devoted to helping seed this 
process of training teachers as well as providing the 
materials.
    I would say that one of the most important innovations that 
the Library has done has been to add an educational function, K 
through 12, to our already historic function of training higher 
scholars and the like and using the interactivity of the 
Internet to get people back into reading rather than pull them 
away with essentially passive spectatorism of television.
    New technologies tend to imitate the prior technology and 
the Internet has been excessively imitative, I think, of 
television in that it is a vehicle for commercial advertising 
and so forth, which is okay; but the market has not developed, 
so far, effective and widely used methods of training in the 
educational use of the Internet.
    We have provided the material which is either public domain 
or we have express permission of the copyright owner to use it 
for this educational purpose, and people are free to download 
it. Kids can use it in all kinds of inventive ways. Teachers 
have the lesson plans as well, so we are making I think a 
substantial contribution to what everyone will agree is 
important for almost every problem we face in our country; 
namely, improvement of K through 12 education. It is a free 
service and we have been well supported, largely by Congress, 
but there are also important private contributions to this. It 
is ongoing and developing and we will have by the end of this 
year a template for every State that wants to set up a program 
for better training. This is training of the teachers who 
sometimes, as I say, think this is excessively difficult. It 
really isn't difficult. It is not neurosurgery or rocket 
science, but it is an important addition to--not a replacement 
for--traditional education.
    Also it is extremely important for this fundamental 
problem: the fact that almost 1 out of 3 fourth graders is not 
able to read in America. That is really a national disgrace, if 
I can get a little bit on the soap box.
    Ms. Millender-McDonald. I agree with you and my time is up. 
And I thank you so much, Dr. Billington.
    Dr. Billington. That is our educational effort and we hope 
that this can continue and develop. Of course, we are only a 
small element in a very large sea of problems, but I think we 
invented this use of technology. We should be using it for one 
of our most important national needs.
    Ms. Millender-McDonald. Absolutely.
    The Chairman. The Chair recognizes Mr. Brady for 5 minutes.
    Mr. Brady. Thank you, Mr. Chairman.
    Dr. Billington, I was pleasantly surprised to find out that 
you grew up four blocks from my house, in the great city of 
Philadelphia, and I am going to continue our relationship. I 
have an affinity for people who come from the same place as I 
do, as we all do; and knowing that you have to be embedded with 
some union affinity, I am sure. There is some legislation 
pending about the police officers that are employed by the 
Library of Congress merging with the Capitol Hill Police, and 
hopefully none of them will be harmed in any type of way or 
lose their jobs. I understand they will be incorporated in, but 
as you know, sometimes people that are on the job 15, 20 years, 
and close to pension and close to pension age, the 
qualification reclassification--they have to requalify--may be 
a little too rigorous. And I note you have your own internal 
securities there. And I was hoping that I could talk to you 
further about their situation and hope that they will not be 
unemployed or hurt in any way.
    I understand also that you may or may not be able to 
comment on that, because hopefully there is an agreement that 
was made that may not need to be made public but; I would like 
you to know that I am going to continue that conversation and 
continue our relationship and hope that that can be taken care 
of and no men and women over there will be unemployed because 
of that merger.
    Dr. Billington. I know what you are talking about and I 
want to express our continuing concern. We have had a lot of 
dialogue about this with our Congressional oversight 
committees, and I will defer to our chief of staff, on your 
question and has been working in this area.
    The Chairman. Doctor, with our newfound relationship, I 
just wanted you to know I know, and I want to continue my 
relationship with you, but I will be more than happy to hear 
from Ms. Jenkins.
    Ms. Jenkins. I just wanted to say that we are not prepared 
to comment on that. We are working with the House and Senate 
Committees to bring this to a positive resolution.
    Mr. Brady. If we in any way, shape, or form can be helpful 
with that dialogue, please feel free to let us know.
    Ms. Jenkins. Thank you, sir.
    The Chairman. The gentleman yields back the balance of his 
time. The gentlewoman from California, Ms. Lofgren.
    Ms. Lofgren. Thank you. I was notified that we lacked a 
quorum in the IP Subcommittee, but by the time I had gotten to 
the elevator they had given up and adjourned; so here I am, 
back.
    I think what is going on at the Library is very exciting. I 
am interested in a couple of issues in the testimony, written 
and also here, there has been a discussion about the need to 
access an open source and the committees you are putting 
together. I do not have all the people involved today, but I 
will send to you later the people who have been in touch with 
me in the private sector that are putting together an effort 
that may or may not mesh. You are the ones to decide that, not 
me.
    On that issue, I was interested in the World Digital 
Library and our partners in that, and I notice that we did not 
have a Spanish-speaking partner nor did we have a partner in 
Asia. What is the plan for that, and is that something to be 
concerned about? I do not know whether Dr. Marcum or Ms. 
Campbell would be the one to handle that.
    Ms. Campbell. We do have a partner in Spain.
    Ms. Lofgren. That is correct. I was thinking Latin America. 
It is fine for Brazil to be our partner, but as the largest 
Portugese-speaking nation in the world, I am wondering is there 
an effort to broaden that in Latin America?
    Ms. Campbell. Absolutely. We have seven existing partners 
and we have recently signed agreements with Egypt and the 
national library in Alexandria and the National Library in 
Cairo--to extend that group of countries to Egypt. We are going 
to take the experience of our initial seven partners and import 
that to a broader audience, working with UNESCO and other 
communities, to make certain that we include as many countries 
as we possibly can with multilingual presentations.
    This is a very big issue for us. And the underpinnings, 
which I think from your earlier comments you can appreciate in 
terms of how we build the architecture that supports this body 
of content, is very, very important; so we will be able to 
provide the security for it and we will be able to maintain it 
in several places around the world.
    Ms. Lofgren. Now, pursuing that, I am not suggesting who 
should be our next partner, I am sure that is a complicated 
multinational decision, but certainly there are some countries 
that are tiny and some that are huge and have more content to 
bring to the table. And certainly if some of those larger 
actors were not on board with us, if this is truly to be a 
worldwide effort, that would be a problem.
    Are we reaching out to some of those sections of the globe 
to make sure that we are--we may be at odds politically, but we 
should not be at odds in preserving the culture of the world.
    Ms. Campbell. Well, for example, Mali is a recent partner 
of ours. We have preserved, working with them, digitized 
Islamic manuscripts that deal with a number of subjects, 
including law and poetry and the history of West Africa. We 
recognize in certain parts of the world there will be some 
stronger libraries and we will help them identify really 
interesting, fabulous and unique material from their region, 
and so we are including the small countries as well. It is very 
important.
    Ms. Lofgren. If I can ask--and I do not know whether Dr. 
Marcum or Ms. Campbell would be the most appropriate person to 
direct this question to--but we have got a couple of issues. 
One, converting our analog collection to digital; and the other 
is just simply collecting the digital world as it evolves.
    Going to the second point, there was a discussion about Web 
pages that disappear and the need to collect them. There have 
been actually some private sector efforts to do that. And I am 
wondering to what extent our effort duplicates that and whether 
it is necessary to duplicate that--I do not suggest that that 
may be necessary--but also the reach of the Webs. I mean, are 
we going into MySpace and FaceBook, or are we just doing what 
is available to anyone? What are we looking at?
    Ms. Campbell. We are working with the Internet Archive, 
which takes periodic snapshots of the Web and has done so since 
the early days of the World Wide Web. They are one of our 
partners in collecting at-risk digital material in the National 
Digital Preservation program.
    We also helped co-found an international organization 
called the International Internet Preservation Consortium where 
we are among 11 national libraries and the Internet Archive who 
are working together to develop common tools so we will be able 
to share material with other countries that are collecting 
their own domain materials. And yes, that is true, the figure 
that we rely on is that the average Web site disappears in 44 
days. And it isn't just the Web site, it is all kinds of 
content, photographs and music and independent films and things 
that certain communities cannot afford to keep, such as local 
and State data, maps that are created on the fly.
    Ms. Lofgren. If I may, with unanimous consent, another 30 
seconds. I serve on the Homeland Security Committee and one of 
the issues that we have at least touched on but not addressed 
very well is information that was generally available, and even 
published before 9/11, that now poses security--at least 
concerns relative to the critical infrastructure of the United 
States. Have you come up with a strategy for dealing with that?
    Ms. Campbell. Under the National Digital Preservation 
program, that long acronym, NDIIP we call it, we have a 
subgroup of the nine Federal agencies that are involved on our 
advisory board, and one of the things that we are addressing is 
preservation policies. Many of those organizations have come up 
against this issue where they had to take down material that 
was already out there in the public's hands, and so we are 
looking at those policy issues. We are looking at preservation 
standards: Can we agree on what the preservation standard is 
across the federal government, because it would make it easier 
for many of us. And we meet on a regular basis. There are nine 
of us and I expect there will be a few other agencies that will 
join us.
    Ms. Lofgren. Is the Department of Homeland Security one of 
the agencies?
    Ms. Campbell. No. DOD has just joined us but we would be 
happy to have the Department of Homeland Security join us.
    Ms. Lofgren. You may not be happy.
    Ms. Campbell. This is actually a fairly desperate group. We 
need one another. There are not a lot of people who want to 
delve into the nitty-gritty of digital preservation.
    The Chairman. The gentlewoman's time has expired. We will 
start a second round of questions. I have a fairly lengthy 
question for Dr. Billington, and I ask that you bear with me 
through the length of this but it is a very important question.
    Obviously, we will not finish all the questions we have 
today and so we will have to submit written questions on some 
issues. But the first major question, businesses around the 
world are well aware that in order to remain competitive in 
their industries it is no longer sufficient to possess a 
workforce comprised only of competent and loyal employees. 
Successful companies know it is imperative to build and sustain 
a highly skilled and nimble workforce that is able to not only 
survive but thrive in an environment where the pace of change 
accelerates every year.
    In other words, it is not your grandmother's Library 
anymore. Obviously the Library is not in a competitive 
marketplace, but it plays a critical supporting role to the 
Congress, which needs to set public policy in a very dynamic 
world. Old models of human capital management that developed in 
the latter half of the last century cannot possibly fulfill the 
needs of the Congress and the country in the 21st century.
    Dr. Billington, on this I have three related questions. Is 
the Library's human capital sufficiently skilled and 
appropriately deployed to support the changing requirements of 
the Congress?
    Second, is the Library's human capital structured correctly 
to be highly responsive to the rapidly evolving environment in 
which it functions?
    And third, does your long-term human capital strategy align 
properly with the long-term needs of the Congress in the next 
10 to 20 years? I would appreciate your answer to this 
comprehensive question.
    Dr. Billington. Thank you, Mr. Chairman. That is a very 
good and central question. The Library's staff, through its 
different discrete areas, is at different stages in addressing 
this need for a kind of transformed workforce. The Library is 
not merely the National Library; it is also a kind of knowledge 
conglomerate. So if you begin with the institutions that most 
directly serve the Congress, the Congressional Research Service 
and the Law Library, you will find that they have almost 
completely transformed how knowledge is analyzed, gathered, and 
transmitted to Members of Congress. The Law Library with its 
global legal information network, 43 participating countries, 
increased usage last year. For instance, in 2002 they were 
getting 405,000 hits on their Web site; through June of this 
year they have got 6,751,000. So there is an enormous increase 
in the utilization of the institutions that most directly serve 
the Congress in the transformation and integration of the new 
digital universe.
    The Copyright Office is in the final stages of a 
reengineering to adapt copyright deposit and registration to 
the digital world. The technology staff serving the Library as 
a whole, was out in front of really much of the world and much 
of the private sector with the launch of the Library's Web in 
1994, with its ability to begin simultaneously both the 
American Memory Web site with 10,500,000 items now on line and 
an enormous number of hits in educational usage, and, at the 
same time, the Thomas system. So the leadership in the digital 
field is fairly distinct now in the information program that we 
have talked about.
    Regarding your question about the adequacy of our workforce 
in a competitive world, is it sufficiently skilled and 
appropriately deployed?
    We have a couple of really profound problems that have to 
be overcome. First of all is the high degree of technological 
competence that is involved in this transformation. I think it 
is not an inconsiderable accomplishment to have taken the 
leadership role that we have had, particularly in dealing with 
direct services to the Congress. We have also reached out to 
new constituencies in the country when our workforce is not 
sufficiently competitive in what we can pay skilled high-tech 
workers, although we need them very much.
    We also have the problem of an aging workforce. If you take 
the core of the Library--the Librarian category, some 850 
people, 22 percent of our workforce--only 10 percent of those 
are under 40 years of age. More than half of them, 51 percent 
to be exact, are over 55. So we have a problem of how to 
replace skilled employees. We have a fundamental challenge that 
you have to have more and more people in the central library 
profession who have a variety of skills. The Library is full of 
people with one-of-a-kind skills developed over a great many 
years. The average length of service is 18 years. Forty percent 
of our staff will be eligible to retire by the year 2010. So we 
have a large problem of replacement and we have extraordinarily 
important needs to retrain current employees so that they can 
have a great need of flexibility. This is not always easy to 
attain.
    We have important need for retraining but we do not have a 
particularly high training budget. While it is too early to 
predict the final outcome of our current budget submissions, we 
had a substantial--not exorbitant, but an important request for 
training funds to analyze this and project future needs in 
connection with our strategic plan which we are developing now. 
This year we are developing a very integrated strategic plan, 
but we had hoped to be able to analyze this problem and define 
it in precisely the terms you have requested, but it does not 
look like we will get much of that request. We have a fairly 
low training budget for one of the most specialty-intense 
workforces in the Federal Government. We have a great many 
problems. But the great thing that we do have is a very 
dedicated workforce, a lot of experience.
    Another aspect of professionalizing the workforce is 
mentoring, succession planning, which has been fairly well 
advanced in CRS and some other parts of the Library. It 
requires the ability to have people both exercising their job 
and training people who will succeed them in those intangible 
one-of-a-kind skills with which the Library is very rich.
    I am happy to answer more detailed questions, but I would 
say that in terms of human capital management, the human 
component is the key to our future, really. We simply need to 
have more flexibility, and we are preparing draft legislation 
for the 110th Congress that will address many of the needs and 
many of the questions that you have posed.
    I am glad you brought this issue up because it is the core 
need: the human capital and replacing the skills. And we need, 
as Dr. Marcum has mentioned, a new type of librarian, in a 
sense, that you can call ``knowledge navigator'' who is capable 
of both substantive knowledge, linguistic knowledge. We deal 
with 480 languages and new skills in the electronic world so 
that they are able to do for the Congress, and increasingly for 
the American people, one-stop shopping where you can get 
information that is dependable, you can sort through the 
unfiltered world of the Internet and integrate it into the 
world of traditional knowledge stored in books and other analog 
items.
    It is an enormous challenge. It is one we are working very 
hard on, and I think in our new strategic plan we will be able 
to present a full and integrated picture of how human capital 
development for the Library of the 21st century will be 
conducted.
    The Chairman. My time has expired, but I do want to say we 
will have to pursue this with you as a committee, both minority 
and majority. I think it is a very complex issue that we will 
be facing over the next few years, as you said, with all the 
replacements taking place. You have to recognize that the 
Library depends on two things: your storage media and your 
personnel. That is what makes the Library, and they are both 
equally important. So we are very concerned about the personnel 
issues and we will pursue that later. But my time has expired.
    Now I would like to mention that I thought we were having 
votes, but in fact the House has recessed until 12, so I hope 
we can finish this panel, hear the second panel, and deal with 
that before noon.
    At this time I recognize Ms. Millender-McDonald.
    Ms. Millender-McDonald. Thank you, Mr. Chairman.
    Dr. Billington, as you create this digital repository 
representing cultures around the globe, I know Google is 
providing funding for the initial planning for this World 
Digital Library. Has Google expressed an interest in continuing 
to fund the program beyond the planning process? Have other 
organizations expressed interest in participating in the 
program in this way?
    Dr. Billington. We have no further absolute commitment, but 
we have expressed an interest in taking a look at what happens 
in this pilot phase that we are doing. I should say that this 
is totally nonexclusive--we hope to get other contributors, as 
well.
    Yes, they have expressed some interest and it is important 
to realize that this is a nonexclusive philanthropic 
arrangement. We are very pleased with their support. When Mr. 
Sergei Brin and I conducted a telephone press conference 
announcing this, someone asked why are you doing this? And 
Sergei Brin said, quite spontaneously, I don't think it was 
programmed, he said, When I went to the Library I was looking 
at old Chinese maps and I realized they were telling stories 
that were very different from how far Shanghai is from Beijing. 
They were telling part of the story of these people. He said, I 
didn't know much about it, but I was kind of fascinated by it 
and I loved looking at this, and I thought other people ought 
to have the same opportunity.
    It seems to me that this is a feeling that everybody has 
when they look at the treasures. What we are doing here is also 
showing the world that America has not only preserved and 
stored much of the world's treasures, but is giving it back 
free to those countries. These treasures are largely visual, a 
lot of maps, a lot of old prints, a lot of things of these 
kinds that will immediately attract an audio-visual generation 
and, at the same time, raise curiosity and interest and respect 
for the different cultures of the world. So we think that this 
is something that is going to attract other backing and we are 
very pleased.
    The world digital Library is an outgrowth of our meeting of 
the frontiers project demonstrating the historical connection 
between the U.S. and Russia. We now are approaching a million 
items from Russia, and we are getting terrific cooperation from 
them. It has bilingual commentary. It compares America's 
movement west with Russia's movement east. It has been very 
successful. We have something like 36 Russian institutions 
sharing material, and we are, from the Library's collection, 
mixing them together in a virtual Library that unites and 
reaches across borders, which involves more than just the 
Library of Congress. Other American institutions are 
contributing to it.
    The two pilot projects that we are doing in this initial 
phase are with Brazil and Egypt. With Egypt, we are getting 
parallel Arabic-English commentary. We are doing the history of 
Islamic science, which from the 10th to 16th century was in 
many ways the best in the world.
    We are celebrating foreign cultures, not just cultivating 
foreign customers. That is the commercial world. Ours is very 
different. It also represents something about America, that 
America itself is composed of many different cultures.
    Take the material in Mali. The President of Mali was over 
here a couple of years ago. There is an enormous amount of 
Islamic medical history that continued in West Africa because 
it was beyond the reach of the Ottoman Empire, where for a long 
period that great tradition stagnated. We are expanding our own 
understanding of the world, because it is bilingual, the 
commentary is in whatever language the country is, as well as 
in English. It is enabling young Americans in our already 
established educational program to learn about the world's 
memory as well as our own American memory in its various forms.
    Ms. Millender-McDonald. That is really so great. Thank you 
very much, Mr. Chairman.
    The Chairman. Thank you. I have one final question and the 
rest we will submit to you in writing. But this one goes back a 
ways, under Chairman Thomas' tenure, which is better than 6 
years ago. This committee spent a lot of time and effort 
working with the Library to develop standards and protocols 
establishing comprehensive collections security. You may recall 
at that time we had some losses, some very serious losses.
    Could you please provide the committee with an update on 
your continuing efforts to ensure that the Library's 
collections are being properly managed and protected?
    Dr. Billington. I would ask to be able to provide it for 
the record in detail. In general, I think that the security 
problems which occurred and attracted a fair amount attention 
about 13, 14 years ago, have been successfully addressed. One 
of the first actions I took was to close the stacks to public 
access. Theoretically, it had always been closed, but there 
were so many exceptions. So that has all been secured. We have 
an integrated, well thought out collections security plan. 
Unlike most buildings, we have to have security not only in 
people coming in the buildings, but people leaving the 
buildings.
    The Capitol Visitor Center will help a great deal because 
it will centralize the security clearance for people, but we 
are working also on making sure that we adjust to that.
    General Scott, my deputy who really oversees the whole 
security side of things, is unfortunately not here this week. 
But I would invite anyone else of my colleagues to talk about 
it. Because the unique thing about the Library is that in 
addition to all the other concerns about security and national 
monuments and in addition to participating fully in an 
integrated way with the perimeter security problems of this 
Capitol Hill complex, there are the very special problems of 
collection security, because these are enormous treasures. And 
perhaps because it concerns the collections, Dr. Marcum might 
want to speak on it.
    The Chairman. Dr. Marcum, you are recognized.
    Dr. Marcum. Thank you. We have a very active collection 
security committee that now consists of staff from the 
collections in the Library and our security staff. They have 
worked very effectively in identifying all the possible risks, 
looking at ways to diminish those risks; and consequently, 
because of their good work, I do not think we have lost a 
single, significant item since they have been in operation.
    You probably saw all of the publicity about a person who 
was visiting all of the major libraries stealing maps recently, 
and many of our sister institutions lost a lot of maps during 
that time. I am happy to report that the Library of Congress 
did not lose a single map in that instance, and we are quite 
familiar with the person who was doing it; but I believe that 
the combination of the collection staff working with the 
security staff, tightening up all of those procedures, has been 
enormously successful.
    The Chairman. Thank you. Does anyone else wish to offer a 
comment? If not, we will terminate this portion of the hearing 
and proceed to the second panel. But I would like to ask the 
first panel to remain here to hear the testimony in case there 
are further questions for you. So I thank all of our witnesses 
on this panel for their testimony. I now invite Mr. Dennis 
Roth, President of the Congressional Research Employees 
Association, for his testimony. Mr. Roth.

STATEMENT OF DENNIS M. ROTH, PRESIDENT, CONGRESSIONAL RESEARCH 
                     EMPLOYEES ASSOCIATION

    The Chairman. Mr. Roth, welcome. We are pleased to 
recognize you for 5 minutes.
    Mr. Roth. Mr. Chairman, ranking minority member, good 
morning. My name is Dennis Roth, President of the Congressional 
Research Employees Association, otherwise known as CREA, the 
union representing over 500 bargaining union employees in the 
Congressional research Service. I would like to say how pleased 
I am to hear both of you say this morning how important staff 
are to the Library of Congress, not just its physical resources 
but also its human resources. This morning I will focus on a 
small portion of those resources that exist in the 
Congressional Research Service.
    I would like to focus my specific testimony on the style of 
management being practiced under the leadership of CRS Director 
Daniel P. Mulhollan and its consequences on staff and on CRS.
    Leadership can be accomplished in many ways and we believe 
that the style currently practiced by CRS management is 
inappropriate, damaging, and destructive for a professional 
service organization. It is autocratic, centralized, and 
secretive. Staff who speak out and recommend changes to top-
level management decisions are labeled disloyal and whiners, 
unwilling to accept change. This has led to an ever-widening 
gap in trust and respect between top-level CRS management and 
its staff.
    CRS is aware that this problem exists based on two 
communication surveys conducted in 2002 and 2004. On both 
surveys, staff expressed a strong desire to have a 
participatory form of management; that is, an opportunity to be 
heard. Yet CRS top-level management has chosen not to do so.
    We believe the event that triggered the decline in trust 
and respect was the major reorganization of CRS in 2000. Staff 
were never informed that a reorganization was being 
contemplated, and when it was announced, staff were told that 
management was not open to modify the major provisions of the 
reorganization. Because of this leadership style of ``decide 
and announce,'' staff and top-level management began a 
disengagement, whose effects still exist. CRS analysts and 
information specialists are deemed good enough to work and 
advise the Congress of the United States, but not good enough 
to work for the top-level management of CRS.
    Director Mulhollan's decision in September of 2005 to 
eliminate the positions of 59 production support, technical 
support, and audio-visual support staff was conducted under the 
same shroud of secrecy and autocracy. Analytical and research 
staff who rely most heavily on these support staff were never 
consulted. Thus the announcement of management's decision sent 
a shockwave throughout the service. The primary reason given 
for the RIF was that CRS had conducted ``sound business 
practice'' analyses, yet CRS has refused to let these studies 
see the light of day. The director has turned down requests 
from congressional committees, individual Representatives and 
Senators, and CREA. His unwillingness to give them to us has 
been found illegal by an arbitrator.
    Wouldn't you think that any substantive studies supporting 
a business decision of this magnitude and with such dire 
consequences would have been released immediately? Like us, 
Many members of the House were unable to comprehend the 
rationale for the director's decision, and in February of this 
year expressed their displeasure in a letter to Librarian of 
Congress James Billington.
    Congresswomen Millender-McDonald and Norton and Congressmen 
Cummings, Gonzales, Honda and Wynn all stated unequivocally 
that the director's process for reaching this decision was 
``fundamentally flawed'' and raised the prospect of open 
hearings. The hearings are now, and CRS must be made to explain 
and defend its decision in the open. We believe that the 
alleged sound business practice studies will be found to be 
deficient in sound cost analyses and insufficient to reach a 
decision to eliminate the positions in question.
    Analyses conducted in analytical divisions in CRS a month 
after the announcement of the abolishment of the positions 
clearly demonstrated that the functions of the dismissed staff 
were necessary in performing our services to Congress.
    CREA also remains highly concerned over the effect the RIF 
will have on the diversity of CRS staff. The positions being 
eliminated are held predominantly by minorities and by women. 
Some staff achieve these positions by participating in 
affirmative action and upward mobility programs. Approximately 
70 percent of those who were targeted to lose their positions 
were African American, Asian, or Hispanic. Hard hit were 
minorities in the middle grade levels in CRS; that is, at the 
GS-8 level and the GS-12 level.
    CREA, from the outset, pushed the concept of retrain and 
retain, but the position of CRS top-level management was to the 
contrary. They argue that RIF-affected staff could not be 
retrained for any positions that were to open up in the 
immediate future.
    When CREA requested that Director Mulhollan utilize the 
occupational development provisions of our collective 
bargaining agreement, he replied that the employees could not 
be retrained for the new CRS positions. In fact, he went so far 
as to accuse me of being disingenuous and raising false hopes 
and expectations for those staff.
    In January of this year, the Library opened up its On-Line 
Learning Center, or the OLC, as part of the Center For Learning 
and Development. The OLC provides access to about 600 on-line 
courses, including administration, finance and accounting, 
human resources, library science, and contracting officers 
technical representative training.
    I personally approached the director of the center to 
investigate if he had been contacted by CRS to assist in 
retraining, and was disappointed but not surprised to learn 
that he was not. Furthermore, CRS's claim that they had more 
than adequately trained the RIF'd staff was found to be false 
by the arbitrator.
    It is not too late to require CRS and the Library to offer 
retraining to the affected staff for present and future 
positions in CRS and the Library. The infrastructure for 
accomplishing this is in place. The Center for Learning and 
Development is there. What is lacking is CRS and the Library's 
willingness to do so. What a waste of resources, both the 
Library's training capabilities and the people who are being 
dismissed.
    Unlike the leadership of our sister legislative agencies, 
the Government Accountability Office and the Government 
Printing Office, our director has determined that our staff are 
disposable and their long years of service and commitment mean 
nothing. The director has also stated repeatedly that the 59 
staff had to be released because funding was necessary to 
increase the analytical capacity of CRS. Of the 96 positions we 
have counted to date that have been filled since the 
announcement, only 34 percent, or about 1 in every 3, has been 
for an analyst or a specialist. About 18 percent were for 
supervisors or managers. CRS top-level management is increasing 
CRS's supervisor and manager capacity more than it is 
increasing its analytical capacity.
    Are the salaries saved by eliminating 59 staff really going 
to hire more analysts and specialists? We are not antichange. 
What we are against is effectuating change through secrecy and 
inflexibility. We are not seeking co-management. We are seeking 
opportunities to be consulted and to influence major changes 
that affect CRS's service to the Congress.
    The reputation of CRS was achieved and is maintained 
through the action of our analysts, librarians, and those who 
support them. Yet from top-level CRS management, we cannot 
attain the respect and trust that you give us on a daily basis. 
We seek your assistance in correcting this.
    We wish to work with management to make CRS the best place 
to work on Capitol Hill, as it was when I first joined the 
organization 30 years ago. CREA also requests that you make 
every possible effort to pass H.R. 5328, the Library of 
Congress Employee Transition Act of 2006, introduced by 
Congresswoman Millender-McDonald, as soon as possible. CREA 
deeply thanks the Congresswoman for her efforts, not only for 
introducing the legislation, but also for all the interest and 
assistance offered over the past 10 months. She has been a 
source of hope and support for all of our affected staff. Now 
we need help from all of you to pass this legislation.
    I will now be happy to address any questions you may have. 
Thank you.
    [The statement of Mr. Roth follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you for your comments. I allowed some 
extra time for you to complete it because I did not want to 
interrupt that narrative.
    Just a few quick questions on my part. I am not totally 
familiar with the RIF process, but my understanding is that 
under the RIF process all the employees who are losing their 
positions are being offered other open positions in the Library 
of Congress. Is that taking place?
    Mr. Roth. That would be true if there are other open 
positions. As of my discussions with the staff person that is 
conducting the RIF, they didn't have at that time a list of any 
open position for them to be placed. It was unclear. They had 
talked to each of the service unit heads and had asked them to 
submit open positions, but at this point we do not know what 
was given back to him to say if there are any positions at all.
    The Chairman. All right. My understanding is that there are 
some, and every attempt to be made to accommodate all the RIF 
employees, but I have not tested that lately. I know that my 
Ranking Member, Ms. Millender-McDonald, has a keen interest in 
this; so in the interest of time, because we will be voting 
soon, I yield back the balance of my time and will recognize 
Ms. Millender-McDonald.
    Ms. Millender-McDonald. Thank you, Mr. Chairman.
    Having served as a personnel director in both the public 
and the private sector years ago, I am concerned about a 
hostile environment that is not conducive to any type of 
positive working conditions. I keep hearing this coming up all 
the time, that the environment is very hostile.
    Employees have to have respect and trust at all times, no 
matter who they work for, either for Members of Congress, for 
the President of the United States, or for the Library of 
Congress and the CRS. So I am very concerned and became 
concerned when I heard about these displacements or the attempt 
to displace 59 employees. Right away I spoke with Dr. 
Billington as well as Mr. Mulhollan about this.
    Subsequent to that, I talked independently with these 
employees that were affected, without either the unions or the 
management present, because I wanted to speak directly with 
them. I think it is really very shortsighted, and, to some 
degree, rather telling, when management says that employees 
cannot be retrained, even though that management has never put 
funding in a program to retrain employees.
    Now, this is my understanding, Mr. Roth. Am I correct in 
that assessment of saying that money was never put in? In fact, 
I think an article was in the paper here just the other day, 
stating that money was not put into a retraining program for 
employees.
    Mr. Roth. The director released a--I think it was a 5- or 
6-year analysis of all the money put into training, and it was 
very heavily front loaded. In 1999 we had received a lot of 
training, and as we move to 2005, which was last year, almost 
no training was offered. The arbitrator in her ruling noted 
that only 12 out of 51 staff--because that is just limited to 
our bargaining unit--received training in 2004, and only 2 in 
2005. This is training directly related because of 
technological changes that you needed to update your skills, 
that was not forthcoming. As a result of that, she has ruled 
that staff who felt they needed to do it out of pocket to keep 
current, the Library should reimburse those people.
    Ms. Millender-McDonald. I did read that article. Has the 
Library reimbursed those employees who did take money out-of-
pocket for retraining to keep up to the present technological 
advancements?
    Mr. Roth. Not yet. The process is that the Library has 30 
days from receiving the decision to appeal any of the 
arbitrator's findings, and that would be August 11 by the way I 
calculate it. So unless we hear something that they are not 
going to appeal it, we haven't been told that they are going to 
fund it at any point in time.
    Ms. Millender-McDonald. I will raise that question with Dr. 
Billington in just a short minute. But the Chairman has said 
that he heard from both, I guess, Dr. Billington and certainly 
from Mr. Mulhollan, that those 27 or 29 persons who are the 
ones that are left from this 59 that initially were going to be 
asked to buy out and leave their post, were going to be 
reassigned. Are you suggesting that that is not the case?
    Mr. Roth. Well we haven't heard that at all. I talk to 
those people affected on a daily basis. I met, as I said, last 
week with the human resources person who has been contacted to 
deal with the RIF, and when I contacted him he did not have the 
responses if there would be enough. He was not optimistic, but 
he said he has to wait and see what people respond to him. So 
as of, say, the end of last week, there was no commitment by 
the Library or CRS to retain these people.
    Ms. Millender-McDonald. Dr. Billington, can you come 
forward, sir, and answer that question, given that the Chairman 
had spoken to me on the House floor that those 29 employees 
were in fact going to be reassigned to other positions?
    The Chairman. Let me just comment that we are approaching 
short time, so please keep the answers very brief, and we can 
certainly continue this discussion privately as well.
    Dr. Billington. I will be happy to answer this and any 
other question in more detail. But I think on this question, we 
should defer to our head of Human Resources Mr. Dennis 
Hanratty. Let me just say, in general, that the Library is 
doing everything possible to minimize the impact of the 
transformational processes, which I have explained in some 
detail, on the affected staff. We are very supportive of your 
initiative in trying to see that we get the same additional 
rights in the executive branch as we have in the legislative 
branch, and we will ensure that those employees' rights are 
protected through strict adherence to both our regulations and 
collective bargaining agreements. Mr. Hanratty can speak to the 
specific question.
    The Chairman. Would you state your name and title?
    Mr. Hanratty. Dennis Hanratty, Director for Human 
Resources.
    The Chairman. That is for the entire Library of Congress, 
including CRS?
    Mr. Hanratty. That is correct. As Dr. Billington mentioned, 
we are protecting our employees' rights. The reduction in force 
commenced on June 29, and on that day I provided official 
notice to the impacted staff and met with them to explain the 
reduction in force process. Since then we have met with each of 
the employees individually. Each employee has given us a resume 
of his knowledge, skills, and experience which we have shared 
with each service unit in the Library.
    As part of the reduction in force process, we have frozen 
hiring actions in the impacted job series up to the highest 
grade impacted by the reduction in force, and we are attempting 
right now to place employees in vacant positions for which they 
qualify.
    The Chairman. And when do you expect that process to 
conclude?
    Mr. Hanratty. The process, Mr. Chairman, covers a 90-day 
period. So the RIF commenced on June 29, we will continue our 
efforts through the months of August and September to attempt 
to identify positions for these employees.
    The Chairman. What happens to the salaries of these 
employees?
    Mr. Hanratty. If an individual is transferred to a 
different position in the Library, then that position is 
absorbed, that salary is absorbed by the new service unit. 
Employees have significant protections in a reduction in force. 
For example, if the best we can do is to find an employee a 
position that is a lower-graded position, that employee has 
protections for his current salary for a 2-year period. And at 
the end of that 2-year period, we would move that individual up 
to the highest step within that grade and provide that employee 
up to 150 percent of the current step. So it is quite possible 
that even if the best we can do is identify a lower-graded 
position, an employee would be able to retain his salary.
    The Chairman. All right. I think it would be improper for 
us to get into too much detail in this hearing. I think the 
issue has been brought to our attention.
    I think it would be more appropriate that we thank Mr. Roth 
for his information. I learned some things that I was not aware 
of before, and I appreciate you coming here. I also appreciate 
the Library's honest intent to place them properly.
    And I am always concerned about getting too heavily into 
any human relations issues in open session. So I would suggest, 
if the Ranking Member does not object, that we adjourn this 
meeting and that we continue this discussion and follow it 
through. I am certainly interested in making certain that we 
treat all employees of the Library fairly and we will certainly 
want to have further conversations with all of you to ensure 
that this is properly done.
    I turn to the Ranking Member and I recognize her.
    Ms. Millender-McDonald. I just wanted to say that I do 
recognize personnel issues and the importance of them not being 
publicly exposed. But there are a lot of times when there is 
litigation going on that they cannot be done. On a general 
note, you can continue to raise questions.
    The only thing I wanted to raise was if you are doing the 
process, sir, Mr. Human Relations person, it is within the 
scope of collective bargaining that you have done with the 
union. And secondarily, every employee has bumping rights to 
bump into a comparable position with that same salary. And I 
would like to hope that this is what is going on in that 
process because that is where we bump into problems when it 
comes to MOUs and that is what I wanted to express, Mr. 
Chairman.
    The Chairman. I appreciate your expressing that and, again, 
we will pursue that. It looks as if we are about to have some 
votes. Is there anything further you would like to ask?
    Ms. Millender-McDonald. No. There are many questions.
    It seems like a vote is coming on. I do have an appointment 
back in my office that I have got to go to. I would like to 
ask, though, if the Human Relations gentleman--I am sorry, I 
did not get your name.
    Mr. Hanratty. Mr. Hanratty.
    Ms. Millender-McDonald. If Mr. Hanratty and Mr. Roth and 
Dr. Billington and Mr. Mulhollan can meet with me to discuss 
some of those issues that we perhaps have not been able to get 
to, with reference to those 29 employees that we are trying to 
get positions for within the Library.
    The Chairman. I thank you for the suggestion and we will 
arrange for such a meeting. If you want to pursue it at any 
time, we will certainly continue working on this issue.
    We thank you, Mr. Roth, for your testimony. We thank you 
for the Library for the response. I think this is something 
that we should be able to work through without too much 
difficulty.
    With that, I want to thank all of our distinguished 
witnesses for their time, preparation, and thoughtful comments, 
as well as the members of this committee and their staff who 
participated in this hearing.
    I ask unanimous consent that members and witnesses have 7 
calendar days to submit material for the record, including 
additional questions of the witnesses and also for those 
statements and materials to be entered into the appropriate 
place in the record. Without objection, the material will be so 
entered.
    I ask unanimous consent that staff be authorized to make 
technical and conforming changes on all matters considered by 
the committee at today's hearing. Without objection, so 
ordered.
    Having completed our business for today and for this 
hearing, the committee is hereby adjourned.
    [Whereupon, at 12:04 p.m., the committee was adjourned.]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]






</pre></body></html>
